DEPARTMENT OF HOMELAND SECURITY

   Office of Inspector General


 Independent Auditor's Report on TSA's

     FY 2008 Mission Action Plans

                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528



                                                                        Homeland
                                                                        Security
                                          July 9, 2008


                                      Preface

The Department of Homeland Security (DHS) Office ofInspector General (DIG) was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

The attached report presents the results of the Transportation Security Administration's fiscal year
2008 Mission Action Plans audit. We contracted with the independent public accounting firm KPMG
LLP (KPMG) to perform the audit. The contract required that KPMG perform its audit according to
generally accepted government auditing standards. KPMG is responsible for the attached
independent auditor's report and the conclusions expressed in it.

The recommendations herein have been discussed in draft with those responsible for implementation.
It is our hope that this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner
                                      Inspector General
                               KPMG LLP                                                                          Telephone 202 5333000
                               2001 M Street. NW                                                                 Fax       202 533 8500
                               Washington, DC 20036                                                              Internet  www.us.kpmg.com




February 22, 2008

Ms. Anne Richards
Assistant Inspector General for Audits
Department of Homeland Security, Office of the Inspector General

Mr. David Norquist
Chief Financial Officer
Department of Homeland Security

This report presents the results of our work conducted to address the performance audit objectives relative
to the Department of Homeland Security's (DHS or the Department) Mission Action Plans (MAPs)
developed to address the intemal control deficiencies at the U.S. Transportation Security Administration
(TSA). These deficiencies were identified by management and/or reported in KPMG LLP (KPMG)
Independent Auditors' Report included in the Department's fiscal year 2007 Annual Financial Report
(herein referred to as the "FY 2007 Independent Auditors' Report").

This performance audit is the third in a series of four performance audits that the Department's Office of
Inspector General (OIG) has engaged us to perform related to the Department's fiscal year 2008 MAPs
that are contained with the Department's Internal Controls Over Financial Reporting Playbook (ICOFR
Playbook). This performance audit was designed to meet the objectives identified in the Objectives,
Scope, and Methodology section of this report. Our audit procedures were performed using draft MAPs
provided to us on January 4,2008. Interviews with TSA management and other testwork, was performed
at various times through February 21,2008, and our results reported herein are as of February 22, 2008.

We conducted this performance audit in accordance with generally accepted govemment auditing
standards (GAGAS). Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings based on
our audit objectives.

The performance audit did not constitute an audit of financial statements in accordance with GAGAS.
KPMG was not engaged to, and did not, render an opinion on the Department's or TSA's intemal controls
over financial reporting or over financial management systems (for purposes of Office of Management
and Budget Circular No. A-I27, Financial Management Systems, July 23, 1993, as revised). KPMG
cautions that projecting the results of our evaluation to future periods is subject to the risks because of
changes in conditions or because compliance with controls may deteriorate.




                                   :<P;'11G U_P .'l U S iimiteli li~,I.>IIII}· P<llt1ll!iI!,hIP,:5 th" U S
                                    n2n'b~r filln .}:- .~;Pr~;G il1~a 1',"!(1)"11 .~;; ·.i~s '~Cr)I-''''HI'':'
Table of Contents

EXECUTIVE SUMMARY                        2

BACKGROUND                               4

OBJECTIVE, SCOPE, AND METHODOLOGY        5

FINDINGS AND RECOMMENDATIONS             7

MANAGEMENT RESPONSE TO REPORT            9

KEY DOCUMENTS AND DEFINITIONS           10





                                    1
EXECUTIVE SUMMARY

The Department of RomelandSecurity (DRS or the Department) has identified weaknesses in internal
control over financial reporting through its annual assessment conducted pursuant to Office of
Management and Budget (OMB) Circular No. A-I23, Management's Responsibility for Internal Control,
and compliance with the Federal Managers' Financial Integrity Act (FMFIA). Some of the deficiencies
are material weaknesses identified by DRS' external fmancialstatement auditor. Beginning in 2006, the
Department launched a comprehensive corrective action plan to remediate known internal control
deficiencies. The plan is documented in the Internal Controls Over Financial Reporting Playbook
(ICOFR Playbook).. The Mission ActionPlan (MAP) is a key element of the ICOFR Playbook that
documents the remediation actions planned for each control deficiency at the DRS component level. The
MAP provides specific actions, timeframes,key milestones, assignment of responsibility, and the timing
of corrective action validation.
The U.S. Transportation Security Administration (TSA) developed four MAPs to be included in the 2008
ICOFRPlaybook. The MAPs are intended to address control deficiencies identified in General Ledger
Management, Property Management,Employee Accrued Leave, and Budgetary Resource Management.
The objective of this performance audit was to evaluate and report on the status of the four detailed MAPs
prepared by the TSA to correct internal control deficiencies over financial reporting described above. We
conducted our audit in accordance with the standards applicable to such audits contained in the
GovernmentAuditing Standards, issued by the Comptroller General of the United States. Our audit waS
performed using specific criteria to assess the MAP development process used by TSA, and evaluate the
MAPs submitted by TSA to the DRS Chief Financial Officer to be included in the 2008 ICOFR
Playbook.
The evaluation criteria were developed from a variety of sources including technical guidancepublished
by OMB, the.GovernmentAccountability Office, and applicable laws and regulations. We also
considered DRS' policies and guidance and input from the Office of Inspector General when designing
evaluation criteria. Our evaluation criteria are:
    1.	 Identification (of the root cause)-Identification of the appropriate underlying root cause that is
        causing the internal control deficiencycoridition(s).
    2.	 Development (of the MAP) - Clear action steps that address the root cause, and a.ttainableand
        measurable milestones at an appropriate level of detail.
    3.	 Accountability (for execution of the MAP) - The individual MAP owner is responsible for its
        successful implementation, ensuring that milestones are achieved and thatthe validation phase is
        completed.
    4.	 Verification and. validation- The MAP includes written procedures to verify successful
        implementation of the MAP,ameans to track progress throughout the MAP Jifecycle, and
        reporting results when complete.
We noted that the TSA has prepared MAPsthat address its known control. deficiencies described above.
TSA'sFY2008MAPs were submittedtirnelyto the Department's ChiefFinancial Officer toibe included
the ICOFRPlaybook.Inaddition, TSAhasimplemented a process to monitor its progress toward
completion of its milestones this year.
We also lloted some areas where the MAPs could be improved. Specifically, we noted that the MAP
milestones are not clearly linked to root causes. Critical interdependericiesare notidentified within each
MAP and affected milestones, such as those betweenmilestones, accountingprocesses, and lor with third
parties (e.g., U.S. Coast Guard information technology(lT) systems). The verification and validation
(V&V) plans also could be improved byfurther development.
Werecommended that the TSA revise its MAPs to address these concerns. Specifically, TSA should:



                                                    2
•    Continue to perform a comprehensive root cause analysis and maintain documentation to support the
     analysis, including a review of financial IT systems, processes, and humanresources.
..   Improve.the MAPs by clearly linking each deficiency or root cause identified by management (as well
     as those identified by the independent auditor) to milestones.
•    Identify critical·interdependencies and include milestones recog"nizing these dependencies.
•    IncludeV&V procedures as each critical milestone is completed in order to accurately track the
     progress of each MAP. V&V should be performed by someone other than the process owner and
     should be documented for external audit and OMB Circular A-123 support.




                                                     3

BACKGROUND

The Department of Homeland Security (DHS or the Department) and the U.S. Transportation Security
Administration (TSA) recognize that deficiencies in internal control over financial reporting exist The
internal control deficiencies are reported by DHSmanagement in its annual Secretary's Assurance
Statement, issued pursuant to Office of Management and Budget (OMB) Circular No. A-123,
Management's Responsibilityforlnternal Control. The Secretary's Assurance Statement and the findings
of the external auditor are reported in the Department's fiscal year 2007Annual Financial Report (AFR).
The conditions causing the .control weaknesses are diverse and complex. The evolution of the
Department'S mission, programs, component restructuring, and other infrastructure changes has made
remediation of these control weaknesses very challenging. To meet this challenge, the Department's
Secretary, Chief Financial Officer and financial management in the DHScomponents have adopted a
comprehensive strategy to implement corrective actions beginning in fiscal year 2007 and continuing in
FY2008.
The DHS Office of the Chief Financial Officer (OCFO), Internal Control Program Management Office
(ICPMO) is primarily responsible for the development and implementation of the Department's strategy
to implement corrective action plans. The ICPMO has documented its strategy and other related plans to
remediate identified internal control deficiencies in the Internal Controls Over. Financial Reporting
Playbook{ICOFR Playbook).
In 2006, the Department issued Management Directive 1030, Corrective Action Plans, and the
Department enhanced its existing guidance by issuing the Mission Action Plan Guide, Financial
Management Focus Areas Fiscal Year 2008 (MAP Guide). In accordance with the MAP Guide, the
Department and its components developed Mission Action Plans (MAP) that describe the corrective
actions to be implemented. The Department continued to utilize an Electronic Program Management
Office (ePMO), a Web-based software application, to manage the collection and reporting of MAP
information.
The MAp Guide is applicable to all Department components,including TSA, and outlines the policies
andprocedures necessary to develop fiscal year 2008 Department MAPs. All components were required
to submit MAPs,or MAP updates, for any new or existing internal control deficiencies over financial
reporting, identified by management ortheexternal auditors, for input into to the fiscal year 2008 ICOFR
Playbook.
To comply with Management Directive 1030 and the MAP Guide, TSA's Internal Controls Branch
prepared four detailed MAPs for fiscal year 2008 to address the internal control deficiencies over
Financial .Reporting, Capital Assets and· Supplies, Actuarial and Other Liabilities, and Budgetary
Accounting that contributed to Departmental material weaknesses in the 2007 Independent Auditors'
Report. The internal control deficiencies associated with each MAP are summarized below:
   •	 General Ledger Management - TSA· made .a number of restatements to its prior year financial
      statements and did noLhave certain policies and procedures in place all fiscal year. It required
      numerous other onctopadjustments to properly close and report its monthly and annual financial
      results. TSA required significant additional human resources to perform its year-end general
      ledger close, prepare financial statements,and respond to audit inquiries ina timely manner.
   •	 Property Management ~ TSA maintains extensive capital assets used at airports to screen
      passengers and .their baggage. It .did not reconcile. its propertysuhsidiary .ledger to its general
      ledger consistently and tiinelythroughoutFY 2007. TSA had not recorded depreciation on
      certain equipment using a method that is consistent with U.S. generally accepted accounting
      principles~ TSA is not recording purchases ofproperty in compliance with the US. Standard
      General Ledger,and improperlycapitalited certain advance payments as construction in progress.




                                                   4

   •	 Employee Accrued Leave ~Apart of TSA's employee compensation package includes annual
      leave, which accrues at varying rates and is based on years ofservice, and related benefits. TSA
      has not maintained all. of the necessary supporting documentation for accrued annual leave. Also,
      it has not reconciled annual leave balances earned by employees per the payroll provider's output
      records to the data submitted by TSA and with the general ledger on a routine basis.
   •	 Budgetary Resource Management--'- TSA has substantial obligations and undelivered orders at
      yearend,primarily for contract services and purchases of equipment. TSA does not have a funds
      controL process in place to monitor outstanding obligation balances on a periodic basis. It does
      not have sufficient policies and procedures requiring contract officers to monitor and close-out
      contracts.
OBJECTIVE, SCOPE,AND METHODOLOGY

Objective
The objective of this performance audit was to evaluate and report on the status of detailed MAPs
prepared by the TSA to COITect internalcontrol deficiencies over financial reporting. Our evaluation was
performed using specific criteria, described in the methodology section below, to assess the process used
todevelopanddocument the TSA fiscal year2008 MAPs. We did not evaluate the outcome of the MAP
process or any. corrective actions taken by management during our·audit, and our findings should not be
used to project ultimate results from MAP implementation.. Recommendations are provided to help
address findings identified during our performance audit.

Scope
The scope of this performance audit includes TSA's FY 2008 MAPs developed to address the Financial
Reporting, Capital Assets and. Supplies, Actuarial· and. Other Liabilities, and Budgetary Accounting
internal control deficiencies at TSA as reported in the Secretary's FY 2007 Assurance Statement and in
the FY 2007DHS Independent Auditors' Report. The MAPs subjected to our performarice audit were
provided bythe OCFO,on behalf ofthe TSA, on January 4,2008; The scope of this performance audit
did not include procedures on any ofthe MAPs associatedwith other control deficiencies existing at TSA
as reported in the FY2007 IndependentAuditors' Report. Interviews with TSA management and other
testwork, was performed at various times through February 21,2008, and our tesultsreported herein are
as of February 22, 2008. ·tSA made certain modifications to. the MAPs after January 4, 2008, some of
which are reflected in the ICOFR Playbook. We considered those modifications in drafting our report,
however,due to the timing of our review, we were unable to perform procedures to verify the validity of
those modifications.

Metbodology
Weconductedthis performance auditin accordance with the standards applicable to such audits contained
in the Government Auditing Standards, issued by the Comptroller. General of the United States. Our
methodol()gyconsistedofthe following four-phased approach:
Project Initiation and Planning ~ We attended meetings with thy Department's Office of Inspector
General (OIG), OCFO, and TSA to review the performance audit objectives and scope, describe our
approach, communicate data requests, and gain an understanding of the status of TSA's 2008 MAPs.
Data Gathering --'- We performed interviews with accounting and finance management and staff at TSA
and aCFO. Through these interviews, we gained an understanding of the process used to develop the
MAPs,including key inputs and data used, assumptions made, and reasonsforconclusions reached. The
interviews focused on the analysis performed by theTSA to identify the underlying problems creatingthe
internaLcontrolweakness (root cause) and planned corrective actions, the critical milestones chosen for
measurement, and the methods used to monitor and validate progress in meeting the milestones. We
discussedTSA's resource allocation strategy employeciinthe development arid eventual implementation



                                                    5

of the MAP, including the utilization of contractors to supplement staff as needed and the use of
specialists, if necessary. We also conducted meetings with the Department's OIG to identify and agree to
the criteria used to evaluate the status, and assess the process used to develop and. document the TSA
fiscal year 2008 MAPs (as defined below).
We perfOlTIled reviews of key documents and supporting information provided to us. Our documentation
reviews included:
    •	 The fourTSA MAPs (i.e., the MAP Detailand Summary Reports)that were included within our
        scope, and any underlying supporting documentation provided by TSA
    •	 The Notice of Findings and Recommendations (NFRs) issueq during the FY 2007 financial
        statement audit by the external auditors that supported the internal control findings reported in the
       .FY 2007 Independent Auditors' Report.
    •	 Information provided by TSA management regarding the allocation of resources related to all
       MAPs, including the utilization of contractors.
    •	 The Annual Component Head Assurance Statements· provided pursuant to. the requirements of
        OMB Circular No. A c123.
    •	 The ICOFRPlaybook,MD 1030, the MAP Guide, and existing internal. control monitoring
        guidance (e.g., OMBCircular No. A-123).
Analysis Using Established Criteria - Our evaluation criteria were developed from a variety of sources
including technical guidance published by OMB (e.g., Circular No. A-123) and the Government
Accountability Office (e.g., Standards for Internal Control in the Federal Government), and applicable
Federal laws and regulations (e.g., Federal Managers' Financial Integrity Act of 1982). We also
considered DHS'policies and guidance, such as the MAP Guide and the ICOFR Playbook, and input
from the OIG.Our evaluation criteria are:
1.	 Identification (of the root cause)~Identification of the appropriate underlying root cause that is
    causing the internal control deficiency. A comprehensive analysis typically includes a full
    assessment of the business processes, data flows, and information systems that drive the
    transactions/activities associated with the accounting process where the internal control deficiencies
    are believed to exist. A thorough root cause analysis should include:
    a) Research to discover why, when, and how the condition occurred ~~]Vhat went wrong and why?
    b) Investigation to determine if the problem is procedural or human resources, or both (processes,
       and / or peopIe).
    c) An evaluation to determine if IT system functionality is contributing to the problem, and if IT
       system modifications could be part of the remediation.
    d) An evaluation of internal controls, including Jheexistence of compensating controls that may
       mitigate the deficiency.
    e) An evaluation to determine if third parties (e.g. accounting services provider) are contributing to
       the problem.
2.	 Development (of the MAP) ~ The MAP includes action steps that address the rOQtcause, and
    attainable and measurable milestones at an appropriate level ofgranularity. Milestones should enable
    independent analysis of a MAP's effectivenessin remediation of root causes and provide MAP users
    with insight on the status of the MAP's implementation. For example, they should enable a user to
    determine if the appropriate level ofresourcestb execute a milestone is available and identify
    potential gaps in milestones (e.g., a contractor may need to be hired before a specific milestone can be
    achieved).
3.	 Accountability (for <execution of the MAP) ~ Accountability for the MAP is clearly identified and
    assigned. The individual MAP owner is responsible for its successful implementation, ensuring that
    milestones are achieved,andvalidationof results.



                                                     6
4.	 Verification and Validation - the MAP includes written procedures that verify successful
    implementation of the MAP, provide a means to track progress throughout the MAP lifecycle, and
    require reporting of results when complete. These activities should include documentation reviews,
    work observations,and performance testing that are maintained for internal OMB Circular No. A~123
    review and external audit.
Results - Findings and Recommendations ~ After conducting our analysis and applying the evaluation
criteria to the MAPs, we formulated our findings andrecommendations. The findings represent areas for
potential improvement that could negatively affect TSA's remediation of the control deficiencies if the
MAP is executed as designed.

FINDINGS AND RECOMMENDATIONS

Findings
TSA prepared and submitted MAPs to the OCFO as instructed in the MAP Guide. The MAPs address
each of the four primary processes where control deficiencies existed at the end of fiscal year 2007. The
General Ledger, Budgetary Resource and Property Management MAPs were updates to MAPs prepared
in previous years (dating back to fiscal year 2005). The Employee Accrued Leave MAP was prepared in
response to anew control weakness identified in fiscal year 2007. TSA'sfiscal year 2008 MAPs Were
submitted timely to the Department's Chief Financial Officer. In addition, TSA has implemented a
monitoring process, including periodic meetings to discuss the status of the MAPs and the related
milestones.
TSA's documentation of its root cause analysis was limited to the information provided on the MAP.
Consequently, our reviewofTSA's work supporting its MAP was limited to reading the MAP, comparing
the information to the DHSFY2007 Independent Auditors' Report, and inquiring of various TSA
personnel and management. We were unable to verify, through the documentation made available to us,
that the remediation plans address all potential causes of the control deficiencies. However, basedonour
inquiries with TSA personnel, we determined that TSA was knowledgeable of the MAP.· Guide,
performed a review to determine the source and cause of control deficiencies, and incorporated the results
into the individual MAPs in the form of milestones.
Our findings were:
    •	   Three of the MAPs, i.e., General Ledger, Property, and Budgetary Resource Management, do not
         adequately define the control deficiencies being corrected and/or the purpose of the MAP. The
         Issue Description section does not clearly define the underlying issues or problems that were
         identified· during the root cause analysis, or lead the reader to the corrective actions (e.g.,
         milestones). In some cases, known problems do not have corresponding milestones (e.g., a
         milestone to address the lack of documentation supporting employee leave balances).
    •	   The financial statement assertion sections of the MAPs were not complete at the time of our
         audit,and consequently, the MAP milestones are not linked to the financial statementass~rtions
         (e.g., completeness, accuracy, and existence)affectedby the controlweaknesses. However, we
         noted that the financial statement assertion sections were completed in subsequent versions of the
         MAPs provided by TSA to the OeFO on January 18, 2008, which were included in the !COFR
         Playbook.
    •	   The milestone steps are not clearly linked to root causes. As aresult, we could not determine
         how the milestonesr~lated to the issues identified and root causes, or if the milestones listed in
         the TSA MAP sufficiently addressed aU root causes and corresponding control deficiencies.
                                                                                              \




                                                     7
    •	   Although not required by the DHS CAP Guide, critical interdependencies are not identified
         within each MAP and affected milestones. We identified three interdependencies that should be
         considered in each MAP:
                 Interdependencies between milestones (e.g., defining new staff responsibilities (#1.17.4 ­
                 4/2008) should follow Human Resource approval (#1.17.2 - 7/2008) in the Budgetary
                 Resource MAP);
                 Interdependencies between accounting processes (e.g., general ledger and budgetary
                 processes); and
                 Interdependencies with third parties (e.g., U.S. Coast Guard (USCG), TSA's accounting
                 services provider).
         The MAP does not address the interdependencies with other Departmental control deficiencies, or
         the degree of reliance between MAPs. For example, to successfully implement the General
         Ledger Management MAP, it may be necessary for TSA to meet milestones and correct
         underlying conditions identified in other MAPs related to financi<il reporting and/or the IT
         processes, or for the USCG to implement corrective actions. Control deficiencies identified at the
         USCG may be particularly relevant since TSA's general ledger is maintainedou USCG's IT
         systems. We noted thatthe Dependencies sections of the MAPs were completed in subsequent
         versions of the MAPs provided by TSA to the OCFO on January 18, 2008. However, milestones
         were not updated to cross-reference corrective actions or milestones with dependencies. Full
         remediation of TSA's control deficiencies may require the .correction of other related control
         deficiencies, andloradvances made by other components in correcting their materialweaknesses.
   •	    We noted the following matters related to the verification and validation (V&V) phase outlined in
         theTSA MAPs. TheV&V processes:
                Are not consistently documented across each MAP. While generalV&V procedures have
                been developed that apply to all MAPs and three ofthe MAPs include specific V&V
                procedures, the Employee Accrued Leave MAP does not include specific V&V
                procedures to test. whether milestones have been successfully implemented. Instead, it
                includes outcomes that, if achieved, will indicate that corrective actions have been
                implemented;
                Are deferred until the end of the MAP instead of incrementally throughout the MAP
                process. However,preliminary testing procedures are performed on an ad-hoc basis. For
                those milestones in which preliminary testing procedures are not performed, validation is
                limited to a weekly review of the milestone progress; and
Recommendations
Werecommend that the TSAperform the following to address our findings.
1.	 Continue to perform a comprehensive and thorough root cause. analysis and maintain documentation
    tosupportthat an analysis was performedto identify the underlying caus.es ofthe control deficiencies,
    including areview of financialITsystems, processes, and human resources.
2.	 Improve the MAPs as follows:
   a)	 Link the milestones to identified root causes and/orftnancial statement assertions. This will help
       ensure. that . corrective actions are comprehensive, addressing each of the. issues, and that
       completion of the milestones will allow management to make all. financial statement assertions;
       and
   b)	 Identify critical interdependencies and include specific milestones to recognize instances where
       the successful implementation of.a MAP depends on corrective actions in other accounting



                                                     8
       processes or by third parties, and cross-reference totheothercon·ectiveaction(s). This will help
       with planning and help avoid unexpected interruptions to progress.
3.	 Develop V&V procedures to be performed as each critical milestone becomes complete, and involve
    actualtestingof controls/processes, in order to accurately track the progress of each MAP. V&V
    procedures should be performed by someone other than the process owner and should be documented
    for external audit and OMB Circular No. A-123 support.

MANAGEMENT RESPONSE TO REPORT

Management has prepared an official response presented as a separate attachment to this report. In
summary, management agreed with our findings and its comments were responsive to our
recommendations. We did not audit management's response and, accordingly, we express no opinion on
it.




                                                  9

KEY DOCUMENTS AND DEFINITIONS

This section provides key definitions and documents forthe purposes of this report.

ThePederal Managers' Financial IntegritvAct (FMFIA) requires that Executive Branch Federal agencies
establish andmaintain an effective iriternal contFolenvironmentaccording to the standards prescribed by
the Comptroller General and specified in the Government Accountability Office's (GAO) Standards for
Internal Control in the Federal Government. In addition, it requires that the heads of agencies to
annually evaluate and report on the effectiveness of the internal control and financial management
systems.

GAO's Standards forlnternal Control in the Federal GovernmendStandards) defines internal control as
an integral component of an organization's management that provides reasonable assurance of:
effectiveness and efficiency of operations, reliability of financial reporting, and compliance with
applicable laws and regulations.

The Department of Homeland Security Financial Accountability Act (the DRS FAA) designates the
Department's Chief Financial Officer (CFO),under· the authority of the Secretary, as the party responsible
fotthe designand implementation of Department·wide internal controls. Furthermore, the DHS FAA
requires that a management's. assertion and an audit opinion of the internal controls over financial
reportingbe included in the Department's annual Performance and Accountability Report.

Office of Management and Budget (OMB) Circular No. A-123, Management's Responsibility for
Internal Control, provides guidance on internal controls and requires agencies and Federal managers to
I) develop atid implement management controls; 2) assess the adequacy of management controls; 3)
identify needed improvements; 4) take corresponding corrective action; and 5) report annually on
management controls. The successful implementation of these requirements facilitates compliance with
both FMFIAand the DHS FAA.

Office of Management and Budget (OMB) Circular No. A-127, Financial Management Systems,
prescribes policies and standards for executive departments and agencies to follow in developing,
operating, evaluating, and reporting on financial management systems. The successful implementation
of these requirements facilitates compliance with both FMFIA andtheDHSFAA.

Internal Control Deficiencies -- A control. deficiency exists when the design or operation of a control
does not allow management or employees, .in the normal course of perfOlming their assigned functions,
to prevent or detect misstatements on atimely basis; A significant deficiency is a control deficiencY,or
combination of control deficiencies, that adversely affects DHS' ability to initiate,authorize, record,
process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles suchthatthete is more than a remote likelihood that a misstatement of DRS' financial
statements that is more than inconsequential'Nillnot be prevented or detected by DHS' internal control
over financial reporting. A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material misstatement· of the financial
statements will not be prevented or detected by DRS'internalcontrol.

Management Directive (MD)1030,CorrectiveAction Plans, establishes the "Department's vision and
direction on the. roles and responsibilities for developing, maintaining,reporting; and monitoring MAPs
specific to the DHSPinancialAccoul1tability Act, PMFlA, and related OMRgllidance." In addition tothe
roles and responsibilities, MD 1030 outlines the policies and procedures related to the MAP process. The




                                                    10

organizational structure detailed in MD 1030 encompasses employees at both the component and
department levels.

Thelnternal Controls Over Financial Reporting (ICOFR) Playbook (ICOFR Playbook) was developed
by the. OCFO, Internal Control Program Management Office, to assist the Department in meeting the
financial accountability requirements outlined in the DRS FAA. The ICOFR PlaYbook outlines the
Department's "strategy and process to resolve material weaknesses and build management aSSUrances."
On an annual basis, the ICOFRPlaybook is updated by the OCFO to enhance its exiting guidance,as
necessary, and establish milestones, which will be monitored by the OCFO throughout the year. A
component of the ICOFRPlaybook is MAPs developed by the Department and its components to correct
internal control deficiencies.

The Mission Action Plan Guide. Financial Management Focus Areas FiscalYear 2008 (MAP Guide)
outlines the policies and procedures to be used to develop MAPs throughout DRS, pursuant to the roles
and responsibilities established by the DRS Management Directive (MD) 1030, Corrective Action Plans.
The MAP Guide applies to all Department Components' and Offices (e.g., OFM) where a control
deficiency has been identified. Note non-confonnances related to the Federal Information Security
Management, Act (FISMA), are under the purview of the Department's Chief Information Security
Officer's Plan ofAction and Milestones (POA&M) Process Guide.

Electronic Program 'Management, Offic.e (ePMO) is a Web-based software application the OCFO
deployed to manage the collection and reporting of MAP infonnation.

Mission Action Plans (MAPs), as defined in the MAP Guide, are documents prepared to facilitate the
remediation of internal control deficiencies identified by management or by external parties. MAP
documentation, as described in detail in the MAP Guide, includes a MAP Summary Report and a MAP
Detailed Report that are required to be submitted to the OCFO through ePMO. Below are brief
descriptions of the MAP Summary and MAP Detailed Reports,based on the ePMO MAP Reports Quick
Guide contained in the MAP Guide:

    •	 The MAP Summary Report contains sections to describe the issue (e.g. internal control deficiency
       conditions), results of the root cause analysis perfonned, relevant financial statement assertions
       affected by the issue, key strategies and performance meaStlres, resources required, an analysis of
       the risks and impediments as seen by management, verification and validation methods,and the
       critical milestones to be achieved.
    •	 The MAPDetailed Report provides additional data on the milestones, not onlyon those identified
       as critical but also those sub-milestones under a critical milestone. For each milestone (critical or
       sub), the following data is reflected: due date, percentage of completion,status (e.g., NotStarted,
       Work in Progress and Completed), and the responsible and assigned parties.

TheDepartment's AnnualFinancialReport (DRS AFR)wasissued on November 15,2007 and>consists
ofthe Secretary's Message, Management's Discussion and Analysis, Financial Statements and Notes, an
IndependentAuditors' Report, MajorManagementChallenges, and other required infonnation. Tile AFR
was prepared pursuant to OMBCircularNo. A-136, FinancialReportingRequirements.




                                                    11

                                                                     U.S. Department of Homeland Security

                                                                     Office of Finance and Administration
                                                                     60 I South 121h Street
                                                                     Arlington, VA 22202-4204


                                                                    'Transportation
                                                                    Security
                                                                    l\dba1inistration
  MAY 2 3 2008

Ms. Anne L. Richards
Assistant Inspector General for Audits
Department of Homeland Security
245 Murray Drive SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

This letter responds to KPMG's audit of the Transportation Security Administration (TSA) Fiscal
Year (FY) 2008 Mission Action Plans (MAPs) as reported in the Draft Reporf Independent
Auditor's Report on TSA 's FY 2008 Mission Action Plans dated May 6, 2008. The report notes
TSA's development of four Mission Action Plans (MAPS) to correct internal control deficiencies
over financial reporting.

We concur with KPMG's findings and will be incorporating the recommendations noted in the report.
On behalf of Assistant Secretary Hawley, I would like to express my appreciation for the efforts of
your staff and the KPMG team in completing this audit.


                                           Sincerely,




                                           Davl        lcnolson
                                           Assistant Administrator and Chief Financial Officer
                                           Office of Finance and Administration




File Code: 1000.1.0                                                                          www.tsa.goy
Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Under Secretary for Management
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative Affairs
Chief Financial Officer
Chief Information Officer
Chief Privacy Officer
DHS GAO/OIG Audit Liaison
Assistant Secretary for Transportation Security Administration
TSA Assistant Administrator and Chief Financial Officer
TSA OIG Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHSOIG Budget Examiner

Congress

Congressional Oversight and Appropriation Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
